                      OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                          OFFICE OF AUDIT SERVICES
The OIGS Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                          OFFICE OF INVESTIGATIONS
The OIGS Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE OF EVALUATION AND INSPECI’IONS

The OIGS Office of Evaluation and Inspections (OEI) conducts short-term management and

program evaluations (called inspections) that focus on issues of concern to the Department,

the Congress, and the public. The findings and recommendations contained in these inspection

reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,

and effectiveness of departmental programs.


OEI’S Atlanta Regional Office prepared this report under the direction of Jesse J. Flowers,

Regional Inspector General, and Christopher Koehler, Deputy Regional Inspector General.

Principal OEI staff included:


Atlanta Refion                                        Headquarters

Betty Apt, Team Leader                                Stuart Wright, Program Specialist

James Green, Contractor                               Brian Ritchie, Technical Suppoti

Peggy Daniel, Program Analyst                         Barbara Tedesco, Statistician

Jackie Andrews, I%ogramAnalyst

Joe Townsel, Program Analyst

Tammy Bonney, Program Analyst


To obtain a copy of this report, call the Atlanta Regional Office at (404) 331-5022.

 Department of Health and Human Services

         OFFICE OF
    INSPECTOR GENERAL




MEDICARE   BENEFICIARY     INTEREST   IN
               HMOS
               EXECUTIVE                           SUMMARY

PURPOSE

To determine    Medicare beneficiary   awareness   of and interest   in joining health
maintenance    organizations.

BACKGROUND

In all geographic areas, Medicare beneficiaries can obtain medical care through a fee-
for-service arrangement. However, in approximately 674 counties in 41 States,
beneficiaries also have an option of obtaining medical care through managed care
health plans. As of April 1995, approximately 3.3 million beneficiaries participated in
the managed care plans.

In the interest of expanding options for care for Medicare beneficiaries, the Health
Care Financing Administration (HCFA) asked us to determine beneficia~ interest in
using managed care systems.

FINDINGS

Beneficiarix want nwre infozrnation about HMOS

  �	    While most beneficiaries said they had heard of HMOS, most also said they
        would like more information about Medicare-contracted HMOS.

  �	
        Most beneficiaries said they did not know if they lived in locations where
        beneficiaries could join HMOS,

HCFA has a receptive population for increasing use of HMOs

   �	
        Twenty-seven percent of the beneficiaries expressed an interest in joining an
        HMO. An additional 34 said they did not know if they would be interested in
        joining.

   �	
        Thirty-nine percent of the beneficiaries were not interested in joining an HMO.
        The main reason was because they could not select their own physicians. Only
        a few beneficiaries expressed concern about quality of care in an HMO.

RECOMMENDATION

We recommend that HCFA continue its efforts to educate Medicare beneficiaries
about managed care options and HMOS. HCFA should focus its educational efforts in
areas where HMOS are available that beneficiaries can join, and highlight the
characteristics of Medicare HMOS, including the benefits offered and enrollment
procedures.



                                              i
AGENCY    COMMENTS

The HCFA Administrator commented on our draft report, and concurred with our
recommendation.    He reported that HCFA has already initiated projects designed to
help educate Medicare beneficiaries about managed care. For example, HCFA has
updated the Medicare and Managed Care Plans brochure. This publication explains
fee-for se~ice and managed care, and highlights the differences. The Administrator
reported that HCFA also has a research project with the Research Triangle Institute
to determine the kinds of information beneficiaries want about health care options,
including managed care.




                                         ii
                 TABLE                   OF CONTENTS





EXECUTIVE      SUMMARY


INTRODUCTION       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1



FINDINGS


 �   Beneficiaries Want More Information About HMOs                         . . . . . . . . . . . . . . . . . . . . 4


 �   HCFAHas    a Receptive Population for Increasing UseofHMOs                              . . . . . . . . . . . 5



RECOMMENDATION             . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


AGENCY      COMMENTS         . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


APPENDICES


     Beneficiary Responses to1994 Survey              . . . . . . . . . . . . . . . . . . . . . . . . . . . ..A-l


     HCFA Comments       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..B-1

                           INTRODUCTION

PURPOSE

To determine Medicare beneficiary awareness of and interest in joining health
maintenance organizations.

BACKGROUND

%   Medicare Rogram

Medicare is a Federal health insurance program for individuals age 65 and older and
for certain categories of disabled people. In 1994, Medicare insured about 36.7
million beneficiaries, and paid benefits totalling $159 billion.l The Health Care
Financing Administration (HCFA) within the Department of Health and Human
Services has responsibility for the Medicare program.

In all geographic areas, Medicare beneficiaries can obtain medical care through a fee-
for-service arrangement. However, in approximately 674 counties in 41 States,
beneficiaries also have an option of obtaining medical care through managed care
health plans. As of April 1995, approximately 3.3 million beneficiaries participated in
the managed care plans.2

In the interest of expanding options for care for Medicare beneficiaries, HCFA asked
us to determine beneficiary interest in using managed care systems.

lko Method of Obtaining Medical Care

Fee-for-Service  - Beneficiaries choose their own physicians, hospitals, and other
medical care providers.    Providers submit claims to Medicare for services to Medicare
beneficiaries.  For physician and most other outpatient services, Medicare pays 80
percent of the amount allowed for the covered services. Beneficiaries pay the
remaining 20 percent of allowable charges plus Medicare premiums and deductibles
for inpatient and outpatient care.

Managed Care Health Plans - Beneficiaries enroll in Medicare-contracted            health
organizations which manage their medical care.

The most common type of Medicare managed care health plans is risk-contracted
health maintenance organizations (HMOS). Each HMO has a defined geographic



   lHealth Care Financing Administration, United States Department of Health and Human Serviees,
Data Compendium, March 1995.

    2Health Care Financing Administration, United States Department of Health and Human Services,
Office of Managed Care monthly reports.


                                                1
area, and the HMO serves beneficiaries who live in that area. HMOS are responsible
for providing a full range of Medicare services, and may offer other benefits not
covered by Medicare, such as prescription drugs.

After joining an HMO, a beneficiary selects a primary care physician that is affiliated
with the HMO. All medical care is managed by that physician or a case manager.
The primary care physician either provides needed services or refers a beneficiary to
appropriate specialists or other health care providers associated with the HMO.
Beneficiaries are required to obtain all their medical care through providers affiliated
with the HMO they joined, except for emergency and urgently needed care when they
are out of the HMO service area.

The HMOS agree to provide a beneficiary’s total medical care for a set amount paid
monthly by Medicare. Beneficiaries continue to pay Medicare premiums. They may
also have to pay the managed care plan a monthly premium and a copayment for
services received. However, they do not pay Medicare deductibles or 20 percent of
physician and outpatient charges that are required under the fee-for-service program.

METHODS

As part of a broad 1994 survey to determine beneficiary satisfaction with Medicare,3
we asked beneficiaries about their awareness of and interest in HMOS. We used
questions that were developed by HCFA staff.

In July 1994, we mailed a questionnaire to 1279 randomly selected Medicare
beneficiaries for whom Part B claims had been filed in Calendar Year 1993. We
excluded beneficiaries who were already enrolled in an HMO from our sample. We
used standard equations for estimating sample size with a binary response variable.
Based on previous experience with similar beneficiary surveys, the sample size was
calculated to produce an estimate within 3.5 percent of the true value at the 95
percent confidence level. The precision of individual findings maybe less than that
for the overall sample, depending on the number of beneficiaries who responded to
specific subgroups of questions.

Beneficiary participation in the survey was voluntary. A total of 1002 beneficiaries
returned completed questionnaires, for a response rate of 78 percent. Percentages in
the report are based on the number of beneficiaries answering each question.
Appendix A shows beneficiary responses.

A consideration    in surveys of this type is that the results may be biased if non-
respondents are significantly different from respondents. To determine whether
significant differences exist in this survey, we performed various analyses, including a



   30ffice of Inspector General, United States Department of Health and Human Services. Medicare
Bene@ny Satisfaction: 1994. 0EI-04-93-O0480,March 1995.


                                                2
comparison of age and gender for the 1002 respondents and the 277 non-respondents.
The analyses revealed no significant difference, which suggests that our survey results
were not biased.
                              ----- ---- ---- ---- ----

We conducted this inspection in accordance with the Quality Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.




                                            3

                                FINDINGS

BENEFICIARIES      WANT MORE INFORMATION             ABOUT HIVfos

Sixty-four percent of 874 beneficiaries who answered our question said they would like
to learn more about Medicare-contracted HMOS.

Twenty-six percent of the beneficiaries (244 of 935) said they lived in a county with
HMOS that contract with Medicare, and 10 percent said they did not live in locations
where beneficiaries could join HMOS. However, 64 percent of 935 beneficiaries who
answered our question did not know if they lived in locations where beneficiaries could
join HMOS.

Sixty-two percent of 954 beneficiaries who responded to our question about awareness
said they had heard of HMOS. We asked the 244 beneficiaries who said they lived in
a location with an HMO to tell us how they heard about the HMO. Sixty-nine percent
(168 of 244) of them responded. As Table 1 shows, most of those who responded to
the question learned about HMOS through advertisements.


                                TABLE 1
               HOW BENEFICIARIES BECAME AWARE                 OF Hhfos




      Advertising                                   88                 52
      (Television, Newspaper, Direct Mail)
      Family and Friends                            49                 29
      Former or Current Employment                   15                  9
      Insurance Companies                            7                   4        I
      Previous Experience in an HMO                  5                   3
      Other                                          10                  6
      (Hospitals, Senior Citizens Centers,
      and General Knowledge)
      *Some beneficiaries mentioned two ways of learning about HMOS.
      Therefore, the percentages total more than 100%.




                                             4

HCFA HAS A RECEPTIVE             POPULATION          FOR INCREASING           USE OF Hhfos

Twenty-seven percent of the 912 beneficiaries who answered our question expressed
an interest in joining an HMO. An additional 34 percent said they did not know if
they would be interested in joining. The remaining 39 percent said they would not be
interested in joining an HMO.

Of the 39 percent who said they would not be interested in joining an HMO, 72
percent (256) cited one or more objections. Table 2 shows that most of them were
concerned about their inability to select their doctors if they joined an HMO.
Interestingly, only 9 percent   of the 256 beneficiaries    expressed   concern   about quality
of care in an HMO.


                                           TABLE 2

              WHY BENEFICIARIES            OBJECI’ TO JOINING AN HMO





    Inability to Select Physician(s)                 I       101          \         39
    Desire to KeeD Present Phvsician                 I        49          I         19
    Satisfied with Insurance Coverage                I        39          I         15

    Perceived Poor Quality of Care                   I        24          I          9

    Lack of Enough Information on HMOS               I        20          I          8
    Difficulty in Scheduling Appointments            I         7          I          3
    Friends and Relatives’ Poor Experiences          \         7          I          3
    See Different Physicians Each Time               1311
    Other                                                     18                     7
    (Too Old, Fear of Losing Medicare, and
    “Red Tape”)
    *Some beneficiaries mentioned two objections to joining HMOS. Therefore,
    the percentages total more than 100%.


A May 1995 study by the Henry J. Kaiser Family Foundation     also showed that concern
about-inability to-seiect physici&s was the majo; obstacle to Medicare beneficiaries
joining an HMO. Kaiser’s findings were based on 14 focus group meetings with
Medicare beneficiaries in 8 locations during January and March 1995. Kaiser reported



                                                5

that beneficiaries had little information about managed care when they lived in areas
where HMO penetration was low. This Kaiser report also showed that concern about
quality was an obstacle to beneficiaries joining an HMO.




                                          6

                       RECOMMENDATION

We recommend that HCFA continue its efforts to educate          Medicare    beneficiaries
about managed care options and HMOS. HCFA should

  �	
       focus its educational efforts in areas where HMOS are available that
       beneficiaries   can jo@ and

  �	
       highlight characteristics   of Medicare   HMOS, including   the benefits   offered   and
       enrollment procedures.

We note that HCFA’S current efforts to explore managed care options which allows
beneficiaries more flexibility in selecting physicians of their choice is quite consistent
with Medicare beneficiary responses to our survey.




                                                 7

                   AGENCY               COMMENTS


The HCFA Administrator commented on our draft report, and concurred with our
recommendation.     He reported that HCFA has already initiated projects designed to
help educate Medicare beneficiaries about managed care. For example, HCFA has
updated the Medicare and Managed Care Plans brochure. This publication explains
fee-for service and managed care, and highlights the differences. The Administrator
reported that HCFA also has a research project with the Research Triangle Institute
to determine the kinds of information beneficiaries want about health care options,
including managed care.

Apendix B shows the full text of comments provided by HCFA.




                                          8

                             APPENDIX                A


              RESPONSES TO 1994SURVEY            OF BENEFICIARIES


In some cities, Medicare beneficiaries can get their health care through “managed care
systems” called Health Maintenance Organizations, or HMOS. Medicare pays an
HMO a specified amount every month, and beneficiaries who are members of the
HMO get all of their care through doctors, hospitals, and other medical care providers
that belong to the HMO. Beneficiaries who belong to Medicare HMOS do not have
to pay the Medicare deductibles or 20 percent coinsurance, but may have to pay a
small fee for some services.


             QUESTION                RESPONSES         PERCENTAGE


1.    Before today, had you ever heard of HMOS?

      Yes                                596                  62
      No                                 358                  38
       Not Answering:   48

2.     a. Are there HMOS in your city or town that Medicare beneficiaries can join?

             Yes                         244                  26
             No                           89                  10
             Don’t Know                  602                  64
              Not Answering:    67


       b. If yes, how did you hear about those HMOS?     (Open-ended   question)

              (N = 168, Number Answering Question)

             HMO Advertising              88                  52
             Family and Friends           49                  29
             Former Employers             15                   9
             Insurance Company             7                   4
             Previously in HMO             5                   3
             Other                        10                   6




                                         A -1

            QUESTION                RESPONSES        PERCENTAGE





3.    Would you like to learn more about Medicare HMOS?

            Yes                         555                    64
            No                          319                    36
             Not Answering:   128

4.	   a. If there were HMOS in your city or town that Medicare beneficiaries could
         join, would you consider joining?

            Yes                         245                    27
            No                          358                    39
            Don’t Know                  309                    34
             Not Answering:   90

      b. If no, what would be your objections?   (Open-ended        auestion)

             (N = 256, Number Answering question)

             Inability to Select
               Physician                101                    39
             Desire to Keep Present
               Physician                 49                    19
             Satisfied with Present
               Insurance                 39                    15
             Perceived Poor Quality
               of Care                   24                    9
             Lack of Information
               on HMOS                   20                    8
             Difficulty in Getting
               Appointments               7                    3
             Friends/Relatives Poor
               Experiences                7                    3
             See Different Physician
               Each Visit                 3                     1
             Other                       18                     7




                                        A -2

               APPENDIX   B




              HCFA COMMENTS




                  B­ I


–—
     —   ._
            ~,$   ,-W,.,   ~�

      ,.�
                                                                                                                     Health   Care Financing   Adm!nlstratior,


‘$                                    DEP.4RT.MENT (3F HEALTH & HUMAN SERVICES
  .
---                                                                                                                                  -.—
:.
 -,
   f.                                                                                                                The Adm!nlstratar
     ‘++v,,a
       >
                                                                                                                     Washington,      O.C. 20201




                                DATE           SW      5 E%                               (,/,
                                                                             ,,~~11                                                            —
                                              Bruce C. Vladec,         &J
                                I?ROM
                                                                                                                              .. .-            -...>-
                                              Administrator %-        ‘.
                                                                                             %k(iicare   Beneficiq     Interest in Health
                                SIJBJEC’T	    Office of Inspector General Dra?l Report:
                                              Maintenmce Organizations (HMOs),” (OEI-04-93-00142)

                                TO	           June Gibbs Brown
                                              Inspectcx General


                                We reviewed the subject draft report which. discusses Medicare beneficiq awareness of and
                                interest in joining EMOS. We concur with the recommendation that the Health Care Finmcing
                                .Admitistration continue its efforts to educate Medicare beneficiaries about managed care options
                                and HMOS. Our detaiied comments are attached.

                                Thank you for the opportunity to review and comment on this draft repofl.

                                .Attachment


                                                                      m—
                                                                      wG—
                                                                            ~
                                                                      Dmm   -
                                                                            —
                                                                      Dma   —
                                                                      Dm.mP—
                                                                      MQaM�


                                                                      ‘z=
                                                                      DATE   SENT     -
                                                                                                 -_�


                      Health Care Financing Administration (HCFA’I Comments on

                            Office of Inspector General {OIG) Draft Report:

              “Medicare Beneficim Interest in Health Maintenance Organizations (HMOs).”

                                           [OEI-Q4-93-00142]



     OIG Recommendation

     HCFA should continue its efforts to educate Medicare beneficiaries about managed care options —

     and MOS. HCFA should:                                                               -.-      - Y&*-

                                                                                                    —

            0€      fwus its educational efforts in areas where HMOS are available that beneficiaries
                    can jo~ and

            o€      highlight characteristics of Medicare HMOS, including the benefits offered and
                    enrollment procedures.

     HCFA Re.monse

     We concur and aiready have in place some projects which are consistent with the

     recommendation. First, HcFA’s Office of Research and Demonstrations (ORD) currently has a

     research project with the Research Trian@e Institute, which is investigating the kinds of

     information beneficiaries want about heakh insurance options, including managed care, and will

     subsequently design some sample materials which would meet these needs.


     In a second set of initiatives, ORD is designing and implementing two demonstration projects to

     widen the managed care options available to Medicare beneficiaries. To support one of these

     demonstrations (the Competitive Bidding Demonstration), ORD plans to award a contract in

     September 1995 to a marketing firm. In this project the contractor will be designing a marketing,

     education and irdlormation strategy to help Medicare beneficku-ies understand their insurance      .

     options, including managed care options, so they can make better choices.


     HCFA intends to continue its commitment to disseminate clear and quality information on the

     health care delivery system choices available to Medicare beneficiaries. We have updated the

     Medicare and Managed Care Plans brochure, emphasizing beneficruy choices. It is designed to

     higMght the dtierences (e.g., benefits, choice of physician) between the managed care and fee-

     for-service options. ~ additio~ we have developed a videotape on managed care and distributed

     5,000 copies to a variety of groups such as the Information Counseling and Assistance program

     counselors, State agencies on aging, and HCFA regional offices.


     Beneficiaries can call the Medicare Hotline and ask a representative if there is an HMO in thek

     service area. This sexvice is mentioned in the Medicare Handbook under the Managed Care

     section. In additio~ the social Security Administration Teleservice Centers have been given the

     listing of Medicare-contracted HMOS.





—�
